                                                                               Issue Date
                                                                                 July 5, 2007
                                                                               Audit Report Number
                                                                                  2007-NY-1010




TO:               Yvette Lugo, Acting Director, New York Multifamily Housing Hub,
                                 2AHMLAP


FROM:             Edgar Moore, Regional Inspector General for Audit, 2AGA

SUBJECT: Amistad Management’s Administration of Grace Houses, Jamaica, New
         York, Generally Complied with HUD Regulations

                                         HIGHLIGHTS

    What We Audited and Why

                   We audited the activity of Amistad Management Corporation (agent) in its
                   function as management agent for Grace Houses in response to a
                   complaint about administrative and financial issues at Grace Houses. Our
                   audit objectives were to assess the merits of the complaint and determine
                   whether the agent complied with U.S. Department of Housing and Urban
                   Development (HUD) requirements while administering the project.

    What We Found


                   We found the complaint to be without merit. 1 The management agent
                   generally complied with HUD regulations; however, our work disclosed
                   various issues that warrant your attention. Specifically, utility bills were
                   not always paid in a timely manner and two restricted cash accounts have
                   been dormant for many years. As a result, late payment penalties were
                   incurred on utility bills and restricted cash has not been disbursed for
                   intended purposes.


1
    The complaint allegations were without merit and were addressed under a separate internal memorandum.
What We Recommend
           We recommend that the acting director of HUD’s New York Multifamily
           Housing Hub request the management agent to strengthen internal controls
           to ensure that bills are paid in a timely manner to avoid unnecessary late
           payment charges, and take action to properly liquidate the dormant
           restricted cash accounts.

           For each recommendation without a management decision, please respond
           and provide status reports in accordance with HUD Handbook 2000.06,
           REV-3. Please furnish us copies of any correspondence or directives
           issued because of the audit.

Auditee’s Response
           We discussed the contents of the report with the auditee during the audit
           and at an exit conference on June 11, 2007. We requested that written
           comments be provided by June 20, 2007, and they were received on June
           26, 2007. The auditee advised that corrective actions are being taken to
           address the recommendations.

           The complete text of the auditee’s response can be found in appendix B of
           this report.




                                        2
                        TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
   Finding 1: Amistad Management’s Administration of Grace Houses Generally   5
                Complied with HUD Regulations

Scope and Methodology                                                         7


Internal Controls                                                             8

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use           9
   B. Auditee Comments and OIG’s Evaluation                                   10




                                         3
                  BACKGROUND AND OBJECTIVES

Grace Houses (Federal Housing Administration Project no. 012-EH645-L8-WAH) is an
80-unit direct loan Section 202 development for the elderly and handicapped located in
Jamaica, New York. Grace Houses is owned by the Grace Episcopal Church Jamaica
Senior Citizens Housing Development Fund Corporation, a not-for-profit housing
company, and is overseen by a seven-member board of directors. Grace Houses receives
project-based Section 8 rental assistance under the U.S. Department of Housing and
Urban Development’s (HUD) Section 8 Housing Assistance Payments Program.
Amistad Management Corporation (agent), located in Valley Stream, New York, is the
management agent for Grace Houses.

Grace Houses was approved in October 1990 under Section 202 of the Housing Act of
1959 for a $7 million loan to construct an elderly housing project. While initial
occupancy occurred in March 1992, final closing was delayed because of litigation begun
in 1996 by the general contractor against the owner and HUD. To avoid a lengthy trial,
the general contractor settled the lawsuit in March 2000, and final closing occurred in
September 2004.

The regulatory agreement signed by the project owner and HUD specifies the
responsibilities of the project owner to maintain the project and its records in accordance
with HUD requirements. A management agreement was entered into between the owner
and the management agent, who manages the project for the owner. The management
agent certification signed by the project owner and the management agent certifies that
the management agent and the owner will comply with HUD requirements and contract
obligations; that all expenses of the project are reasonable and necessary; and that the
project’s accounts, books, and records are established and maintained in accordance with
HUD’s administrative requirements. The agent maintains the financial and accounting
records for Grace Houses.

We initiated an audit in response to a complaint involving financial and administrative
issues at the project. Specifically, the complainant alleged that the agent misused project
funds, permitted units to remain vacant for lengthy periods, paid excessive mortgage
interest, and allowed irregularities in property ownership documents. We found that
these allegations were without merit.

Our audit objectives were to determine whether the agent complied with HUD
requirements while administering the project.




                                             4
                            RESULTS OF AUDIT

Finding: Amistad Management’s Administration of Grace Houses
         Generally Complied with HUD Regulations

While the agent generally administered Grace Houses in accordance with HUD
requirements, two issues warrant attention. Specifically, utility bills were not always
paid in a timely manner, and two restricted cash accounts had been dormant for many
years. As a result, late payment penalties of $389 were incurred on utility bills, and
$2,347 in restricted cash was not disbursed. These conditions occurred because the agent
lacked adequate controls over the expenditure of funds.

Issues Warranting Attention

              Ineligible Late Charges
              The project was charged late payment charges on water utility bills that
              were not paid in a timely manner. According to bank statements, funds
              were available to make these payments. During the period January 1,
              2004 through September 30, 2006, testing disclosed four instances in
              which the project paid $389 in late payment charges. The regulatory
              agreement requires that all project expenses be reasonable and necessary,
              and the management agent certified it would comply with this requirement
              in the management agent certification. The project was charged late
              payment charges on water utility bills because the agent did not pay the
              bills in a timely manner. As a result, the project incurred unnecessary
              costs.

              Restricted Cash
              The project maintained $2,347 in restricted cash that has not been
              disbursed. Fees of $690 were due for services conducted by an architect,
              who is now deceased. These services were performed before the closing
              in 2004 and, as required by HUD, were deposited into the project’s
              replacement reserve account as undisbursed construction funds. If this is
              no longer a valid debt, these funds could be used for other project
              expenses.

              A donation of nonfederal funds was made to Grace Houses to establish a
              program to teach computer skills to the tenants. However, the account has
              been dormant for more than seven years, and as of September 29, 2006,
              the funds including interest totaled $1,657. The funds have not been used
              for any purpose nor has the donor been contacted to determine whether the
              funds could be used for other purposes. The owner should comply with
              the donor’s request or seek approval to remove the restriction imposed on
              the use of the funds.


                                           5
Conclusion

             While the agent generally administered Grace Houses in accordance with
             HUD requirements, late payment charges were incurred and restricted
             cash has yet to be disbursed for its intended purposes. Therefore, action is
             needed to better ensure prompt payment of bills and proper use of
             restricted cash.

Recommendations

             We recommend that the acting director of the New York Multifamily Hub
             instruct the owner/management agent to

             1A.    Reimburse the $389 in late charges incurred and strengthen controls
                    to ensure that all bills are paid in a timely manner to avoid
                    unnecessary late payment charges.

             1B.    Pay the $690 architect fee or ensure that the funds are used for
                    another allowable project expense, and take action to comply with
                    the donor’s request for the use of the $1,657 in restricted funds or
                    obtain approval for an alternative use of the funds so that the $2,347
                    is put to better use.




                                           6
                     SCOPE AND METHODOLOGY

To accomplish our objectives, we interviewed officials of the HUD Multifamily Hub and
the agent, as well as Grace Houses tenants. We reviewed and analyzed HUD regulations,
project monitoring and mortgage files, project audited financial statements, management
agent financial and administrative files, project waiting list logs, and tenant files. We
also conducted housing quality standards inspections for a sample of nine project units.

Our review generally covered the period, January 1, 2004, to September 30, 2006, and
was extended when necessary. Our review was performed between October 2006 and
May 2007. We performed audit work at the management agent’s office in Valley Stream,
New York, and at the project in Jamaica, New York.

Our audit was conducted in accordance with generally accepted government auditing
standards.




                                            7
                          INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined the following internal controls were relevant to our audit
               objectives:

               •      Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its
                      objectives.
               •      Validity and reliability of data - Policies and procedures that
                      management has implemented to reasonably ensure that valid and
                      reliable data are obtained, maintained, and fairly disclosed in reports.
               •      Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use
                      is consistent with laws and regulations.
               •      Safeguarding of resources - Policies and procedures that
                      management has implemented to reasonably ensure that resources
                      are safeguarded against waste, loss, and misuse.

               We assessed the relevant controls identified above.

               A significant weakness exists if management controls do not provide
               reasonable assurance that the process for planning, organizing, directing, and
               controlling program operations will meet the organization’s objectives.

 Significant Weaknesses


               Based on our review, we believe that there were no significant weaknesses.



                                             8
                                      APPENDIXES

Appendix A

           SCHEDULE OF QUESTIONED COSTS
          AND FUNDS TO BE PUT TO BETTER USE

           Recommendation                             Funds to be put
                  number            Ineligible 1/      to better use 2/
                           1A               $389
                           1B                                  $2,347


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
     activity that the auditor believes are not allowable by law; contract; or federal,
     state, or local policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that
     could be used more efficiently if an Office of Inspector General (OIG)
     recommendation is implemented. This includes reductions in outlays,
     deobligation of funds, withdrawal of interest subsidy costs not incurred by
     implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are
     specifically identified. In this instance, if the restricted funds are utilized for their
     intended purpose or released from restrictions, the project will satisfy past debts,
     comply with donor restrictions and/or make project funds available for other
     purposes.




                                             9
Appendix B

     AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation    Auditee Comments




Comment 1




Comment 2


Comment 3




                        10
Appendix B

     AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation    Auditee Comments




                        11
                     OIG Evaluation of Auditee Comments

Comment 1   The auditee has agreed to take action to address untimely payment of
            water utility bills.

Comment 2   The auditee has agreed to take action to ensure the proper use of the
            architect fee.

Comment 3   The auditee has agreed to take action to ensure use of the donation in
            accordance with the donor’s restriction.




                                         12
